powe
       Office of Inspector General
  DEPARTMENT OF HOMELAND SECURITY



   ACE Release 4 Post-Deployment Problems




   OIG-07-54                 June 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                              June 22, 2007

                                                 Preface



The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report assesses the extent to which Customs and Border Protection (CBP) is effectively
detecting and resolving problems with Automated Commercial Environment (ACE) Release 4 after
deployment to land border ports. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed according to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our hope
that this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations

Executive Summary ...............................................................................................................................1
Background ............................................................................................................................................2
Results of Audit .....................................................................................................................................3
     Recommendations............................................................................................................................6
     Management Comments and OIG Analysis ....................................................................................6




Appendices
     Appendix A:             Purpose, Scope, and Methodology .........................................................................7
     Appendix B:             Management Comments.........................................................................................8
     Appendix C:             ACE Release 4 Deployment Schedule .................................................................12
     Appendix D:             ACE Help Desk Call Volume ..............................................................................14
     Appendix E:             Flowchart of Process to Detect and Resolve ACE Issues ....................................15
     Appendix F:             Major Contributors to This Report.......................................................................17
     Appendix G:             Report Distribution...............................................................................................18

Abbreviations
     ACE              Automated Commercial Environment
     CBP              Customs and Border Protection
     CCB              Change Control Board
     CIO              Chief Information Officer
     CR               Change Request
     DHS              Department of Homeland Security
     GAO              Government Accountability Office
     O&M              Operations and Maintenance
     OIG              Office of Inspector General
     OFO              Office of Field Operations
     PTR              Problem Tracking Reports
     SEV              Severity
     SIT              System Integration Testing
     SWIT             Software Integration Testing
     TT               Trouble Ticket




                                              ACE Release 4 Post –Deployment Problems
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                U.S. Customs and Border Protection is developing a new cargo processing
                system to modernize the targeting, inspection, enforcement, border security,
                revenue collection, and trade statistics processes for all cargo entering and
                leaving the United States. The Automated Commercial Environment (ACE)
                will be replacing the current Automated Commercial System. The prime
                contractor started ACE development in August 2001 and plans to complete
                ACE by September 2011 at a total cost of $3 billion.

                The objective of the audit was to determine to what extent Customs and
                Border Protection is effectively detecting and resolving problems at the ports
                after the deployment of ACE Release 4, e-Manifest: Trucks (ACE Release 4).

                Generally, problems referred to the ACE help desk, the principal method used
                by CBP to detect and resolve problems with ACE at the land border ports,
                were effectively resolved. However, Customs and Border Protection did not
                detect and resolve some operational problems that occurred at the ports and
                did not provide adequate communication and guidance to the ports. For
                example, Customs and Border Protection did not develop sufficiently detailed
                standard operating procedures that defined the different types of examinations
                and the proper method for inputting exam results into ACE. This occurred
                because CBP did not adequately monitor port operations and follow-up with
                port personnel after deployment of Release 4. Operational problems with
                ACE 4 and inadequate communication and guidance from Customs and
                Border Protection headquarters to ACE 4 users resulted in resources wasted at
                the ports dealing with operational problems and technical difficulties. We are
                recommending that Customs and Border Protection develop procedures to
                timely monitor post-deployment operations and communicate ACE problems,
                operational fixes, and system changes to officers at the ports. Customs and
                Border Protection concurred with the recommendations and is implementing
                corrective actions.




                       ACE Release 4 Post–Deployment Problems
                                           Page 1
Background
                             U.S. Customs and Border Protection (CBP) is responsible for enforcing the
                             trade laws of the United States while simultaneously facilitating legitimate
                             international trade. One of the critical functions of CBP is to control cargo
                             and conveyances entering and leaving the United States to prevent terrorism,
                             narcotics smuggling, illegal alien smuggling, enforce trade laws, and collect
                             revenue. The ability of CBP to process the growing volume of imports, while
                             improving compliance with trade laws, depends heavily on successfully
                             improving the trade compliance process and modernizing supporting
                             automated systems. The ACE project was initiated to modernize the
                             targeting, inspection, enforcement, revenue collection, and trade statistics
                             processes for all cargo entering and leaving the United States. Congress
                             funded ACE in response to concerns from the trade1 that federal requirements
                             were outdated, burdensome, and duplicative.

                             ACE is being delivered in a series of eleven incremental releases, seven
                             releases for cargo processing and four releases for screening and targeting.
                             The first three cargo releases are deployed and operating. CBP first piloted
                             ACE Release 4 at Blaine, Washington in December 2004, and has been
                             deploying the system to land border ports since April 2005. As of May 2006,
                             CBP had deployed ACE Release 4 to 44 ports and plans to complete
                             deployment to all 99 land border ports by June 2007. See Appendix C for the
                             ACE deployment schedule as of March 2007. Furthermore, the deployment
                             included 14 sub-releases to add enhancements or improve functionality for
                             Release 4 from January 2006 through May 2006.

                             ACE Release 4 provides an electronic truck manifest, a primary officer
                             interface (the screens CBP officers use), and expedited importation
                             processing. The officer interface consolidates more than seven separate cargo
                             release systems to provide CBP officers with a comprehensive view of
                             enforcement and transaction history data to enhance enforcement capabilities
                             while simultaneously expediting the movement of trade. The release provides
                             for the automated manifest processes of determining the admissibility of
                             cargo, conveyance, and equipment arriving in the United States. The release
                             interfaces with the Automated Targeting System to provide selectivity data to
                             CBP primary officers, and other authorized users, to target high-risk
                             transactions and to record and track information associated to potential or
                             actual noncompliance. Release 4 also provides for carriers to provide an
                             electronic manifest for trucks. The filing of an electronic manifest was
                             initially voluntary, but CBP will phase in mandatory electronic manifest filing
                             from January to December 2007.


1
    “Trade” refers to those companies such as importers, carriers, and brokers that deal in international commerce.

                                      ACE Release 4 Post–Deployment Problems
                                                              Page 2
               CBP established the ACE help desk as the principal method to identify and
               resolve user problems with ACE Release 4 at the land border ports. The
               number of calls made to the help desk by Trade and CBP internal users has
               been increasing as ACE is deployed to additional ports and functionality is
               added. The ACE help desk resolved 1461 problems through telephone calls
               and issued 2642 Trouble Tickets in June 2006. See Appendix D for statistics
               on help desk call volume from November 2005 to June 2006.

               The help desk assigns a Trouble Ticket number for problems and tracks the
               ticket from issuance to resolution. Problems are either resolved immediately
               or escalated to the next level of support depending on the severity and
               complexity of the problem. Problems reported to the ACE help desk may
               result in the creation of a Problem Tracking Report (PTR) or a Change
               Request (CR). CBP uses the PTR process to correct a defect in the ACE
               application code. CBP uses the CR process to add new functionality to the
               ACE application. CBP implements PTRs and CRs about once a month. See
               Appendix E for a flowchart depicting the process for resolving ACE Release 4
               problems called to the help desk.

               CBP also detects and resolves problems through informal communication
               with the ports consisting of telephone calls, conference calls, and e-mail
               between port personnel and various groups within CBP.

               The Cargo Systems Program Office (Program Office) and Office of Field
               Operations (Field Operations) management are responsible for planning,
               organizing, directing, and controlling ACE program operations to ensure that
               ACE achieves its intended goals and objectives. The Program Office is
               responsible for the development, maintenance, and deployment of ACE. Field
               Operations provides centralized management oversight and operational
               assistance to U.S. ports.

Results of Audit
               CBP’s detection and resolution of problems that occurred at the ports after
               deployment of ACE Release 4 is generally adequate, but we identified an area
               needing improvement. Overall, problems referred to the ACE help desk, the
               principal method used by CBP to identify and resolve problems with ACE at
               the land border ports, were effectively resolved. However, CBP did not
               identify and resolve all operational problems that occurred at the ports and did
               not provide adequate communication and guidance to the ports on system
               usage. This occurred because CBP did not adequately monitor port operations
               and follow-up with port personnel after deployment of the system.
               Operational problems with ACE Release 4 and inadequate communication
               and guidance from CBP headquarters to ACE Release 4 users resulted in
               resources wasted at the ports because of operational problems and technical
               difficulties with the system.

                      ACE Release 4 Post–Deployment Problems
                                          Page 3
                      According to the Office of Management and Budget Circular A-123,
                      Management’s Responsibility for Internal Control, federal managers are
                      responsible for establishing and maintaining internal control to achieve
                      effective and efficient operations. Internal control includes measuring,
                      reporting and monitoring program performance and developing the detailed
                      policies, procedures, and guidance for ACE Release 4 operations. Monitoring
                      program operations includes reviewing operations to identify and resolve
                      problems that affect the efficiency of cargo processing and the efficient use of
                      resources.

                      We identified examples of operational problems and communication issues at
                      the ports of El Paso, Port Huron, and Nogales that the Cargo Systems Program
                      Office and Office of Field Operations did not identify and resolve. During our
                      audit, CBP conducted two border conferences at which port officials reported
                      the same problems to the Program Office and Field Operations that we
                      identified as well as additional concerns. Examples of problems noted
                      include:

                          •   Port personnel develop and use unauthorized workarounds. For
                              example, one unauthorized workaround used by port personnel to fix a
                              problem was to delete truck drivers or shipments to amend or correct a
                              manifest. This prevented the proper release of the truck and required
                              the help desk to resolve the problem. A trip is the CBP processing of a
                              truck crossing the border. Authorized workarounds are temporary,
                              written procedures from program management that allow cargo
                              processing to proceed before there is a permanent solution to a
                              problem. CBP did not compile, maintain or distribute a list of
                              authorized workarounds.

                          •   CBP does not routinely communicate upcoming system enhancements
                              and fixes or information on common user errors and how to prevent
                              them. CBP occasionally communicated this information to land ports,
                              informally.

                          •   The ports do not receive timely feedback on the status of their
                              problems. A GAO Report2 also found that the ACE help desk did not
                              inform users on the status of their unresolved problems. Without
                              communication from CBP on the status of their problems, port
                              personnel may develop unauthorized workarounds and report fewer
                              problems to the help desk.



2
 INFORMATION TECHNOLOGY: Customs Has Made Progress on Automated Commercial Environment System, but It
Faces Long-Standing Management Challenges and New Risks, GAO 06-580, May 2006

                              ACE Release 4 Post–Deployment Problems
                                                 Page 4
   •   CBP did not develop complete or sufficiently detailed Release 4
       standard operating procedures for the land ports. For example, CBP
       did not develop standard operating procedures that defined the
       different types of examinations and the proper method for inputting
       exam results into ACE. Standardized procedures ensure uniform
       processing of cargo and consistency in reporting exam results. Port
       officials at the southern border conference emphasized the need for
       standard operating procedures and guidance, including how to process
       certain shipments.

   •   Port personnel do not properly use or understand the port monitoring
       activity function in ACE, which is a near real-time tool for managing
       the specific port and provides a high-level snapshot of truck release
       data for the previous 24 hours and e-manifest data for trucks arriving
       in the next 24 hours. We observed port personnel improperly using
       the port monitoring activity function to generate formal reports instead
       of using the Reports function. CBP officials at the southern border
       conference advised port personnel not to use the port monitoring
       activity function to generate formal reports.

CBP has not adequately monitored port operations and followed-up with port
personnel on ACE Release 4 deployment. CBP did not document any ACE
Release 4 post-deployment reviews from April 2005 through May 2006 and
did not provide us with documentation of plans for post-deployment reviews.
As of May 2006, CBP had deployed ACE Release 4 to 44 ports. The first time
CBP conducted a review at a port was in June 2006 in response to reports that
ACE was causing significant backups in Laredo. Post-deployment reviews
include interviews with port managers and staff, observation of processes, and
a review of reported problems, as well as a written report to management that
describes the problems affecting the ports and makes recommendations to
address problems.

CBP did not hold a formal conference to obtain feedback from the ports and
identify ACE Release 4 problems with port officials until more than one year
after ACE deployment. The CBP held a conference for southern border ports
on June 14, 2006, and another for northern border ports on July 18, 2006. The
two border conferences to address post-deployment issues were positive steps
to improve management oversight and resulted in action items to improve the
ACE Release 4 implementation

The operational problems at the ports and inadequate communication and
guidance to the ports have resulted in an inefficient use of resources. Port
personnel and the ACE help desk reported spending considerable time and
effort resolving ACE Release 4 problems. For example, the three ports we
visited devoted time and effort attempting to use the ACE reports function
but, ultimately, the ports continued generating manual reports or reports from

       ACE Release 4 Post–Deployment Problems
                           Page 5
             legacy systems. The ACE help desk had to repeatedly research and resolve
             problems relating to user errors and unauthorized workarounds as well as to
             follow-up on the status of open problems. CBP officers at the ports took
             additional time to process cargo because they did not have guidance on
             releasing certain types of shipments or they developed unauthorized
             workarounds. One port developed their own standard operating procedures
             for inputting examination results, including new exam definitions. Without
             standard operating procedures from Field Operations, cargo processing and
             examination results may not be uniform across all ports.

Recommendations
        Recommendation 1:

             The Commissioner of CBP should develop plans and procedures to timely and
             routinely monitor post-deployment operations, including post-deployment
             reviews, for Release 4 ports and future ACE releases.

        Recommendation 2:

             The Commissioner of CBP should develop plans and procedures to timely
             communicate ACE problems, operational fixes, and system changes to CBP
             officers at the ports.

Management Comments and OIG Analysis:
             In February 2007, CBP began monthly northern and southern border
             conference calls to identify and resolve operational problems related to ACE.
             CBP plans to establish a template, a schedule and a core group of managers to
             conduct post deployment reviews. CBP plans to complete the first round of
             post deployment reviews by December 31, 2007.

             An internal web site and email box provides CBP officers a quick link to
             procedures and frequently asked questions. Interim field instructions were
             disseminated to ACE ports in September 2006. CBP plans to issue standard
             operating procedures by September 1, 2007.

             The actions taken and planned by CBP satisfy the intent of our
             recommendations.




                    ACE Release 4 Post–Deployment Problems
                                       Page 6
              Appendix A
              Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
              The objective of the audit was to determine to what extent CBP is effectively
              detecting and resolving problems at the ports after the deployment of ACE
              Release 4, e-Manifest: Trucks. We performed the audit at various CBP
              locations within the Washington, D.C., area and land border ports of entry at
              El Paso, Texas; Port Huron, Michigan; and Nogales, Arizona.

              To determine the process used by CBP to detect and resolve problems called
              to the help desk, we interviewed CBP officials and reviewed the policies and
              procedures for the help desk, Change Requests, and Problem Tracking
              Reports. We created a flowchart depicting the detection and resolution
              process when a user calls the help desk, found in Appendix C.

              To test the effectiveness of the resolution process for problems reported to the
              help desk, we examined the Trouble Ticket logs for the three ports we visited.
              We judgmentally selected 33 problems based on the description in the Trouble
              Ticket logs. We initially selected at least one Trouble Ticket for each of the
              33 problems. However, we selected additional Trouble Tickets for some
              problems based on the frequency of occurrence, complexity of the problem or
              because interviews with port personnel identified the problem as significant.
              Therefore, we selected 72 Trouble Tickets for the 33 issues. CBP tracks
              Trouble Tickets using a commercial software program. We met with CBP
              officials and observed them trace each of the 72 Trouble Tickets from
              detection through resolution.

              To identify the problems and issues at the ports with ACE Release 4, we
              reviewed the Trouble Ticket logs for the three ports we visited. We conducted
              structured interviews with CBP officers and CBP officials and observed port
              operations. We also obtained and reviewed the Laredo post-deployment
              review report and the minutes of the CBP southern and northern border
              conferences.

              We conducted the audit from April 2006 through July 2006, pursuant to the
              Inspector General Act of 1978, as amended, and according to generally
              accepted government auditing standards.




                      ACE Release 4 Post–Deployment Problems
                                           Page 7
Appendix B
Management Comments




       ACE Release 4 Post–Deployment Problems
                       Page 8
Appendix B
Management Comments




       ACE Release 4 Post–Deployment Problems
                       Page 9
Appendix B
Management Comments




       ACE Release 4 Post–Deployment Problems
                       Page 10
Appendix B
Management Comments




       ACE Release 4 Post–Deployment Problems
                       Page 11
                       Appendix C
                       ACE Release 4 Deployment Schedule




                                                                                                                          Revised
                                                                                  Mandatory            Revised
                                                               Deployment                                               Mandatory
                                                                                  e-Manifest        Deployment
        State                       Cluster                      Schedule                                               e-Manifest
                                                                                     Date             Schedule
                                                               as of 06/2006                                               Date
                                                                                 as of 06/2006      as of 03/2007
                                                                                                                       as of 04/2007
                Blaine, Sumas, Lynden, Point Roberts,
                Oroville, Danville, Ferry, Laurier,
                                                                                                  4/5/05 – 6/21/05
 Washington     Boundary, Frontier, Metaline Falls,               4/5/05            8/1/06                               1/25/07
                Nighthawk

                Nogales, Douglas, Naco, Sasabe,
                                                                                                  7/18/05 - 7/25/05
   Arizona      Lukeville                                         7/25/05           8/1/06                               1/25/07

                Pembina, Neche, Walhalla, Maida,
                                                                                                  8/15/05 – 8/24/05
North Dakota    Hannah, Sarles, Hansboro                          8/24/05           9/1/06                               1/25/07

                Los Indios, Veterans International, Pharr,
                Progreso, Rio Grande City, Roma, Eagle                                            1/18/06 – 1/27/06
                                                                  1/17/06          10/1/06                               4/19/07
                Pass, Del Rio

 Texas/New      Bridge of the Americas, Ysleta, Presidio,
                                                                                                   3/3/06 – 4/2/06
  Mexico        Santa Teresa, Columbus                        2/27/06-3/25/06      10/1/06                               4/19/07

                Colombia Solidarity Bridge, World Trade
                                                                                                   4/22/06–5/4/06
                Bridge                                        4/5/06-4/26/06       10/1/06                               4/19/07

                Otay Mesa, Calexico, Andrade, Tecate,
                                                                                                  5/10/06 – 5/26/06
  California    San Luis                                      5/1/06-5/19/06       11/1/06                               4/19/07

                Ambassador Bridge, Windsor Tunnel,
                Barge Transport, Port Huron, Marine City,                                        10/4/05 – 10/10/05
  Michigan                                                        10/4/05           9/1/06                               05/2007
                Algonac, Sault Sainte Marie

                Champlain, Cannon Corners, Mooers,
                Overton Corners, Rouses Point, Trout
                River, Chateaugay, Fort Covington,
                                                                                                  6/24/06 – 10/5/06
  New York      Churubusco, Jamieson Line, Massena,           6/24/06-7/21/06       9/1/06                               05/2007
                Ogdensburg, Alexandria Bay, Peace
                Bridge, Lewiston Bridge

                Highgate Springs, Alburg Springs,
                Alburg, Morses Line, Richford, West
Vermont/New     Berkshire, East Richford, Pinnacle, Derby                                        10/24/06 – 11/17/06
                                                               8/5/06-9/1/06       11/1/06                               06/2007
 Hampshire      Line I-91, Derby Line Rt 5, North Troy,
                Norton, Canaan, Pittsburgh, Beecher Falls

                St. John, Fortuna, Ambrose, Carbury,
                Noonan, Dunseith, Sherwood, Antler,                                              11/29/06 – 12/14/06
North Dakota                                                 11/25/06-12/15/06     3/17/07                               06/2007
                Northgate, Westhope, Portal

                Eastport, Roosville, Porthill, Whitlash,
                Del Bonita, Wildhorse, Sweetgrass,
                                                                                                  1/24/07 – 2/22/07
Idaho/Montana   Piegan, Willow Creek, Turner, Morgan,        10/14/06-11/17/06     2/20/07                               07/2007
                Scobey, Opheim, Raymond, Whitetail




                                        ACE Release 4 Post–Deployment Problems
                                                                  Page 12
                      Appendix C
                      ACE Release 4 Deployment Schedule




                                                                                                                       Revised
                                                                                 Mandatory          Revised
                                                               Deployment                                            Mandatory
                                                                                 e-Manifest      Deployment
       State                       Cluster                       Schedule                                            e-Manifest
                                                                                    Date           Schedule
                                                               as of 06/2006                                            Date
                                                                                as of 06/2006    as of 03/2007
                                                                                                                    as of 04/2007
               Ferry Point, Milltown, Lubec, Vanceboro,
               Forest City, Orient, Houlton, Monticello,
               Van Buren, Hamlin, Madawaska, Fort
               Kent, Estcourt, Limestone, Jackman,                                              3/19/07 – 5/10/07
  Maine                                                       9/9/06-10/6/06      1/10/07                             08/2007
               Coburn Gore, St. Zacharie, St. Aurelie, St.
               Pamphile, St. Juste, Fort Fairfield, Easton,
               Bridgewater

               Roseau, Grand Portage, Pinecreek,
               International Falls, Baudette, Lancaster,                                        5/22/07 – 6/11/07
 Minnesota                                                     1/8/07-2/4/07      5/17/07                             08/2007
               Warroad

               Dalton Cache, Skagway, Alcan                                                     6/20/07 – 6/28/07
Alaska Ports                                                  8/12/06-8/26/06     11/30/06                            09/2007




                                        ACE Release 4 Post–Deployment Problems
                                                                 Page 13
Appendix D
Help Desk Call Volume, November 2005 – June 2006 (From ACE June Program Management
    Report)




           ACE Release 4 Post–Deployment Problems
                               Page 14
Appendix E
Flowchart of Process to Detect and Resolve ACE Problems and Issues




            ACE Release 4 Post–Deployment Problems
                                  Page 15
Appendix E
Flowchart of Process to Detect and Resolve ACE Problems and Issues




            ACE Release 4 Post–Deployment Problems
                                  Page 16
   Appendix F
   Major Contributors to the Report




George Tabb, Director, Trade Operations and Security Division
Gene Wendt, Audit Manager
Carlos Berrios, Auditor In Charge
David Porter, Auditor
Michael Lugo, Auditor
LaTrina McCowin, Auditor




           ACE Release 4 Post–Deployment Problems
                                 Page 17
Appendix G
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
Executive Secretariat
General Counsel
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative and Intergovernmental Affairs
DHS GAO/OIG Liaison
Chief Privacy Officer

Customs and Border Protection

Commissioner, U.S. Customs and Border Protection
CBP OIG Liaison
Chief Information Officer


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




ACE Release 4 Post –Deployment Problems
                               Page 18
                   Appendix G
                   Report Distribution




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.




                   ACE Release 4 Post –Deployment Problems
                                            Page 19
